FILED

NOT FOR PUBLICATION

OCT 30 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 19-35674
D.C. Nos. 3:13-cv-02099-MA
3:80-cr-00082-MA-l

v.
LAWRENCE DOBY WILSON, AKA Amin
A. Rashid,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Oregon
Malcolm F. Marsh, District Judge, Presiding
Submitted October 26, 2020**
Before:

McKEOWN, RAWLINSON, and FRIEDLAND, Circuit Judges.

Federal prisoner Lawrence Doby Wilson appeals pro se from the district
court’s judgment denying his petition for a writ of error coram nobis, and its order
denying his motion under Federal Rule of Civil Procedure 60(b)(1). We have
jurisdiction under 28 U.S.C. § 1291. We review de novo the denial of a petition

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
//

for a writ of error coram nobis, see United States v. Riedl, 496 F.3d 1003, 1005
(9th Cir. 2007), and for abuse of discretion the denial of a Rule 60(b)(1) motion,
see In re Tracht Gut, LLC, 836 F.3d 1146, 1150 (9th Cir. 2016). We affirm.
Wilson contends that his 1980 conviction for interstate transportation of
fraudulently obtained funds must be vacated because: he is actually innocent of
that offense, he received ineffective assistance of counsel, and his due process
rights were violated when an inaccurate record was provided to this court in a prior
appeal. To obtain coram nobis relief on these claims, Wilson must show, among
other requirements, that “valid reasons exist for not attacking the conviction
earlier.” Riedl, 496 F.3d at 1006. We agree with the district court that none of the
reasons Wilson proffers adequately justifies his delay in presenting his claims. The
district court, therefore, properly denied coram nobis relief and did not abuse its
discretion by denying Wilson’s Rule 60(b) motion.
AFFIRMED.

2

19-35674

/

/
/

//

l&l
&

]/{([

111

J^

V)'

\0rM

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

UNITED STATES OF AMERICA,

Case No. 3:80-cr-00082-MA

Plaintiff,

ORDER

v.

LAWRENCE DOBY WILSON, aka AMIN
A. RASHID,
Defendant.
MARSH, Judge.
Defendant, a federal prisoner confined at FCI Elkton, brings this proceeding pursuant to 28
U.S.C. § 1651, seeking a writ of coram nobis vacating his 1980 conviction for Interstate
Transportation of Money taken by Fraud., For the reasons set forth below, this Court denies
Defendant’s Petition (ECF No. 188).
DISCUSSION
In 1980, Defendant was convicted of Interstate Transportation of Money taken by Fraud.
United States v. Wilson, 915 F.2d 1582, at -1 (9th Cir. 1990). By 1993, Petitioner had filed a direct
appeal and multiple motions to vacate his sentence pursuant to 28 U.S.C. § 2255, all of which were
Page 1 - ORDER

n

/

/

D

denied. See Wilson, 915 F.2d 1582, at * 1; United States v. Wilson, 45 F.3 d 43 8, at * 1 (9th Cir.
i994). Defendant subsequently filed two additional § 2255 motions, a motion for relief from
judgment pursuant to Fed. R. Civ. P. 60(b)(6), and a petition for a writ of coram nobis, all of which
were denied. See United States v. Wilson, No. 3:80-cr-00082-MA, Orders (ECF Nos. 110 ,139,
153, 177).1
In the instant proceeding, Defendant again seeks a writ of coram nobis on the basis that (1)
he is actually innocent ‘'given the fact that the Government failed to prove that he ‘fraudulently’
obtained money in the amount of Five Thousand Dollars

. or more and then took the proceeds or

caused the proceeds obtained by ‘fraud’ to be transported” in interstate commerce; and (2) he was
denied his procedural due process right to an accurate transcript on appeal resulting in the
Appeals Court ‘mistakenly' affirming his conviction on the belief that he was convicted of the
‘fraud’ that was necessary to sustain his ... conviction.” Def s Pet. for Writ of Coram Nobis (ECF
No. 188) at 1,6-8.
Defendant’s claims could have been raised in a prior § 2255 proceeding. It is well settled
that a federal prisoner may not challenge his conviction or sentence by way of a common law writ
under 28 U.S.C. § 1651 to avoid the limitations placed on successive § 2255 motions. United
States v. Vaidez-Pacheco, 237 F.3d 1077, 1079-80 (9th Cir. 2000); Carrington v. United States,
503 F.3d 888, 890 (9th Cir. 2007) (holding that the rule limiting second or successive § 2255
motions does not create a “gap” that can be filled by a common law writ). Accordingly, this Court
., In 2011, Defendant was convicted of nine counts of mail fraud and eight counts of aggravated
identity theft in the U.S. District Court for the Eastern District of Pennsylvania. See Rashid v
Warden Philadelphia FDC, 666 F. App’x 96, 97 (3rd Cir. 2016); In re Amin A. Rashid 628 F.
m?? j
158 ^3rd Clr' 2016)' Defendant’s Oregon conviction was used to enhance his
Philadelphia convictions. Rashid, 666 F. App’x at 97. He currently is serving a 240-month term of
imprisonment with a projected release date of July 19,2027.
Page 2 - ORDER

denies Defendant’s Petition for Writ of Coram Nobis.
CONCLUSION
Based on the foregoing, this Court DENIES Defendant’s Petition for Writ of Coram Nobis
(ECF No. 188). To the extent that Defendant’s Petition is properly construed as a successive
§ 2255 motion, this Court DENIES a certificate of appealability because Defendant has not made a
substantial showing of the denial of a constitutional right See 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
DATED this £ day of February, 2019.

Malcolm F. Marsh
United States District Judge
i

;

Page 3 - ORDER
V-

cf
k;
/

;

\ji4
I

i<r .//
y

/

/

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
UNITED STATES OF AMERICA,

Case No. 3:80-cr-00082-MA

Plaintiff.
JUDGMENT

j

V.

LAWRENCE DOBY WILSON, aka AMIN
A. RASHID,
Defendant.
MARSH, Judge.
I

Based on the Record,
IT IS ORDERED AND ADJUDGED that this Action i
is DISMISSED, with prejudice,
Because Defendant has not made a substantial showing of the denial of a constitutional right, a
Certificate of Appealability is DENIED. See 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
DATED this £ day of February, 2019.

Malcolm F. Marsh
United States District Judge
1 - JUDGMENT

Case: 19-35674, 02/04/2021, ID: 11993098, DktEntry: 23, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 4 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No. 19-35674
D.C. Nos. 3:13-cv-02099-MA
3:80-cr-00082-MA-1
District of Oregon,
Portland

LAWRENCE DOBY WILSON, AKA Amin
ORDER
A. Rashid,
Defendant-Appellant.
Before:

McKEOWN, RAWLINSON, and FRIEDLAND, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Wilson’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 22) are denied.
No further filings will be entertained in this closed case.

U.S. v. Wilson, 915 F.2d 1582 (1990)

915 F.2d 1582
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
(The Court's decision is referenced in a “Table of
Decisions Without Reported Opinions” appearing
in the Federal Reporter. Use FI CTA9 Rule 36-3 for
rules regarding the citation of unpublished opinions.)
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Lawrence D. WILSON, Defendant-Appellant.
No. 89-35841Submitted July 13,1990.
Decided Oct. 11,1990.
Appeal from the United States District Court for the District
of Oregon; James M. Burns, District Judge, Presiding.
Synopsis
D.Or.
AFFIRMED.
Procedural Posture(s): On Appeal.

MEMORANDUM

**

Before FLETCHER, FERGUSON and FERNANDEZ,
Circuit Judges.

to all three charges. He was then provided court-appointed
counsel to prepare a defense against the charges.
The first count, wire fraud, was dismissed by the government.
A juiy trial was then conducted on the remaining counts.
The jury convicted Wilson on the third count, interstate
transportation of money taken by fraud, and acquitted him on
the second count, mail fraud. Wilson was sentenced to seven
years. He appealed. We affirmed the sentence on appeal.
Wilson subsequently filed two section 2255 petitions on
July 19, 1982 and March 8, 1983. On December 19 and
23, 1983, and January 18, 1984, evidentiary hearings were
held on Wilson's petitions. On July 24, 1984, the magistrate
issued a recommendation for dismissal of both petitions. On
September 17, 1984, Wilson filed an untimely notice to reject
the magistrate's findings and to appoint an impartial judge to
review the entire record. On November 13, 1984, the district
court adopted the findings of the magistrate and dismissed
the petitions. On December 14, 1984, Wilson filed a notice
of appeal. On June 8, 1987, we affirmed the dismissal of the
petitions. The issues raised in those petitions were denial of
access to grand jury ministerial records to prove irregularity in
the jury selection process; ineffective assistance of appellate
and trial counsel; unconstitutional enhancement of sentence
based upon a prior Pennsylvania decision; denial of the right
to review transcripts and negligent destruction of hearing
exhibits; refusal of the court to subpoena the prosecutor
because of lack of evidence that the prosecutor perjured
herself at trial; and refusal of the judge to recuse himself for
bias.
On December 21, 1987, Wilson filed a third section 2255
petition with the district court. On February 2, 1988, he
filed a fourth petition with the District Court in the Southern
District of New York.1 These petitions were subsequently

Opinion
*1 Lawrence Doby Wilson (“Wilson”) appeals the district
court's dismissal of his third and fourth 28 U.S.C. § 2255
petitions as successive. Wilson also challenges the court's
denial of his motion for summary judgment. We affirm.

BACKGROUND FACTS
Wilson was involved in a financing scheme related to the
purchase of the Aladdin Hotel in Las Vegas. As a result,
Wilson was indicted for wire fraud, mail fraud, and interstate
transportation of money taken by fraud. He pled not guilty

consolidated in the District of Oregon.
Wilson moved for summary judgment on the petitions on
March 6, 1988. The government responded, objected to
Wilson's filing of a summary judgment motion, and argued
that the petitions should be dismissed as successive. The
issues raised in these proceedings were: denial of access to
grand jury ministerial records to prove irregularity in the jury
selection process; ineffective assistance of appellate counsel;
denial of the right to review transcripts; and use of perjured
testimony of the prosecutor.

/V
WESTLAW © 2020 Thomson Reuters. Ho <Mim to original U.S. Government Works.
Arvrw _9

1

U.S. v. Wilson, 915 F.2d 1582 (1990)

On June 9, 1988, the Magistrate recommended dismissal of
both of Wilson's petitions. The district court adopted the
Magistrate's findings, dismissed the petitions, and denied
Wilson's motion for summary judgment. Wilson filed a timely
notice of appeal.

JURISDICTION AND STANDARD OF REVIEW
*2 The district court had jurisdiction pursuant to 28 U.S.C.
§ 2255. We have jurisdiction pursuant to 28 U.S.C. §§ 1291
and 1294.
We review de novo the district court's denial of the section
2255 motion, United States v. Angelone, 894F.2d 1129, 1130
(9th Cir. 1990), and its denial of the motion for summary
judgment. 1 ’ West Coast Theatre Corp. v. City of Portland,
897 F.2d 1519, 1525 (9th Cir. 1990).

would not be served by reaching the merits of the second
motion.”?1 United States v. Mathews, 833 F.2d 161,164-65
(9th Cir. 1987) (quoting United States v. Donn, 661 F.2d 820,
823 (9th Cir. 1981) (per curiam)).
In our review of the district court's dismissal of Wilson's prior
petitions we considered the merits of all of Wilson's present
claims and rejected those claims. Wilson has shown nothing
to indicate that the interests of justice would be served by
having us reexamine those issues. Wilson has already had a
full opportunity to present his claims to the district court and
to this court. No purpose other than harassment can be served
by his repeated attempts to obtain a decision more congenial
to his way of thinking. If he persists in that course of conduct,
we will not hesitate to impose appropriate sanctions upon him.
See 28 U.S.C. § 1912; Fed.R.App.P. 38.
Therefore, the district court properly dismissed these petitions
as successive and denied Wilson's motion for summary
judgment.
AFFIRMED.

DISCUSSION
Wilson contends that the corn! improperly dismissed his
petitions as successive. We disagree. A section 2255 motion is
successive if: “1) the second motion presents the same ground
determined adversely to the petitioner in the first, 2) the prior
determination was on the merits, and 3) the ends of justice

All Citations
915 F.2d 1582 (Table), 1990 WL 152527

Footnotes

**
1

The panel finds this case appropriate for submission without oral argument pursuant to 9th Cir.R. 34-4 and
Fed.R.App.P. 34(a).
This disposition is not appropriate for publication and may not be cited to or by the courts of this circuit except
as provided by 9th Cir.R. 36-3.
Although Wilson actually denominated these claims as claims of outrageous government conduct and denial
of due process, they were, in substance, nothing more than a repeat performance of Wilson's claims in his
first two petitions.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WEST LAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.
A trtrv

2

U.S. v. Wilson, 45 F.3d 438 (1994)

45 F.3d 438
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
(The Court's decision is referenced in a “Table of
Decisions Without Reported Opinions” appearing
in the Federal Reporter. Use FI CTA9 Rule 36-3 for .
rules regarding the citation of unpublished opinions.)
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Lawrence Doby WILSON, Defendant-Appellant.
No. 94-35312.
Submitted Dec. 19,1994.

I

the denial of a 28 U.S.C. § 2255 motion, < United States v.
Roberts, 5 F.3d 365, 368 (9th Cir.1993), and we affirm.
A claim of legal error, as opposed to a claim ofjurisdictional
or constitutional error, is not cognizable in a 28 U.S.C. § 2255
proceeding unless the error constitutes a fundamental defect
which inherently results in a complete miscarriage ofjustice.
1 United States v. Addonizio, 442 U.S. 178, 185. (1979);
United States v. Wilcox, 640 F.2d 970,972-73 (9th Cir.1981).
The Speedy Trial Act “does not require that the 30-day trial
preparation period of [18 U.S.C.] § 3161(c)(2) be restarted
upon the filing of a superseding indictment.” t United States
v. Karsseboom, 881 F.2d 604, 607 (9th Cir. 1989). The district
court has discretion to grant a continuance if the filing of
a superseding indictment prejudices a defendant, i United
States v. Rojas-Contreras, 474 U.S. 231, 234—37 (1985); see
1;

Decided Dec. 28,1994.
Appeal from the United States District Court, for the District
of Oregon, D.C. Nos. CV-93-00988-JMB, CR-80-00082JMB; James M. Bums, District Judge, Presiding.

I

18 U.S.C. 3161(h)(8).

Wilson fails to show either that he asked for a continuance
or that prejudice resulted from the filing of the superseding
indictment. Thus, bringing him to trial less than 30 days
after the filing of the superseding indictment did not violate

Synopsis
D.Or.

the Speedy Trial Act. See 1

AFFIRMED.

231, 234—37;! Karsseboom, 881 F.2d at 607. Accordingly,
Wilson has failed to present a cognizable claim under 28
U.S.C. § 2255. See 1 Addonizio, 442 U.S. at 185; Wilcox,
640 F.2d at 972-73.

Procedural Posture(s): On Appeal.
Before: SNEED, D.W. NELSON and TROTT, Circuit
Judges.

MEMORANDUM

Rojas-Contreras, 474 U.S.

**

*1 Lawrence Doby Wilson appeals the district court's
denial of his fourth motion brought under 28 U.S.C. §
2255 challenging his convictions for wire fraud, mail fraud,
and transporting fraudulently obtained money in interstate
commerce. Wilson contends that (1) he was forced to trial
in violation of the Speedy Trial Act less than 30 days after
the filing of a superseding indictment; (2) appellate counsel
was ineffective by failing to challenge the Speedy Trial
Act violation in Wilson's direct appeal; and (3) he was not
arraigned on the superseding indictment prior to trial. We
have jurisdiction under 28 U.S.C. § 2255. We review de novo

Because Wilson did not present his ineffective assistance of
counsel claim in his section 2255 motion in the district court,
we refuse to consider the claim on appeal. See i

United

Statesv. Keller, 902F.2d 1391,1395 (9th Cir. 1990); 1 Egger
v. United States, 509 F.2d 745,749 (9th Cir.), cert, denied, 423
U.S. 842 (1975). Similarly, we do not address his contention
that he was not properly arraigned because he failed to
present this claim to the district court. See
United States v.
Mondello, 927 F.2d 1463, 1468 (9th Cir.1991).
AFFIRMED.

All Citations
45 F.3d438 (Table), 1994 WL 721789
-

^

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.
A rvn-v- -A

//

1

U.S. v. Wilson, 45 F.3d 438 (1994)

Footnotes

**

The panel unanimously finds this case suitable for decision without oral argument. Fed.R.App.P. 34(a); 9th
Cir.R. 34-4.
This disposition is not appropriate for publication and may not be cited to or by the courts of this circuit except
as provided by 9th Cir.R. 36-3.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.
Annv

2

Case 3:80-cr-00082-MA

Document 153

Filed 08/04/03

Page 1 of 4

■»

1
2
3
IN THE UNITED STATES DISTRICT COURT
4
FOR THE DISTRICT OF OREGON
5
UNITED STATES OF AMERICA,
6
Plaintiff,

)
)

7

CV No. 03-951-MA
CR No. 80-82-JMB

v.
8
LAWRENCE DOBY WILSON,
9
Defendant.

)
)

ORDER

)

10
11
12
13

Michael W. Mosman
United States Attorney
1000 S.W. Third Ave • / Suite 600
Portland, OR 97204-2024
Attorneys for Plaintiff-Respondent

16

Lawrence Doby Wilson
The Center for Constitutional and
Correctional Justice
Two Penn Center Plaza
Philadelphia, PA 19102

17

Defendant-Petitioner Pro Se

14
15

18
19

MARSH, Judge.
Defendant seeks to set aside a conviction he sustained on

20

November 7, 1980 for transporting $30,000 that he knew was

21

obtained by fraud,

22

to 7 years.

23

defendant then filed a petition for habeas corpus relief pursuant

24

to 28 U.S.C. § 2255 which was also denied by the district court

25

and affirmed on appeal.

26

On December 17, 1980, defendant was sentenced

Defendant filed a direct appeal which was denied;

Defendant has fully served his federal sentence but seeks

27

dismissal because he is currently serving a Pennsylvania state

28

sentence that was enhanced based upon his prior federal
1 - ORDER

Case 3:80-cr-00082-MA

Document 153

Filed 08/04/03

Page 2 of 4

w
Defendant has moved for a writ of error coram nobis

1

conviction.

2

pursuant to 28 U.S.C. §1651.

3

defendant claims that his indictment was faulty because the

4

district court allowed the prosecuting attorney to alter the

5

indictment without seeking a formal superseding indictment before

6

a grand jury,

7

inconsistent and cannot be allowed to stand.

Liberally construing his petition,

Defendant also claims that the jury verdict was

8

Pursuant to the All Writs Act, 28 U.S.C. § 1651(a), coram

9

nobis relief is available to vacate a conviction for a petitioner

10

who has fully served his sentence, but suffers from the lingering

11

collateral consequences of an unconstitutional or unlawful

12

conviction.

United States v. Walaren. 885 F.2d 1417, 1421,

13

Cir. 1989).

To obtain coram nobis relief, defendant must show:

14

" (1) a more usual remedy is not available;

15

exist for not attacking the conviction earlier;

16

consequences exist from the conviction sufficient to satisfy the

17

case or controversy requirement of Article III; and (4) the error

18

is of the most fundamental character."

19

301 F.3d 1127, 1130 (9th Cir. 2002), cert, denied, 123 S. Ct.

20

1008 (2003).

21

narrow category of otherwise closed cases that merit re-opening

22

to correct historical injustices.

23

Hirabavashi. 828 F.2d 591 (9th Cir. 1987).

24

(9th

(2) valid reasons
(3) adverse

United States v. Monreal.

The writ is exceptional and provides relief to a

See e.a. United States v.

Based upon defendant's submissions,

I will assume for

25

purposes of this order that he has established that no other

26

remedy is available and that he is suffering adverse consequences

27

from his 1980 federal conviction.

28

the second and fourth requirements for coram nobis relief: first,
2 - ORDER

However, defendant fails on

Case 3:80-cr-00082-MA

Document 153

Filed 08/04/03

Page 3 of 4

W

1

he has in fact raised similar claims in his prior habeas

2

proceeding and they were rejected by the district court and the

3

Ninth Circuit Court of Appeals,

4

rejected by the Circuit Court may not be relitigated in the

5

district court.

6

(9th Cir. 2000)

7

not form the basis for habeas relief).

8

to identify any "fundamental" error.

9

Ninth Circuit mischaracterized the nature of his underlying

Issues already raised and

See United States v. Hayes. 231 F.3d 1132, 1139
(issues raised and rejected on direct appeal may
Second, defendant fails
He correctly notes that the

10

conviction in its unpublished memorandum disposition affirming

11

the denial of habeas relief, but the court did directly address

12

and reject his claims regarding the validity of his indictment

13

and the timing of his trial on that indictment,

14

that his claims now may vary somewhat from whatever he may have

15

presented in that prior proceeding, they are simply variations on

16

the same theme.

17

have been raised years ago and nothing in the petition justifies

18

the kind of extraordinary relief available under §1651.

19
20

To the extent

All of these arguments either have been or could

Based upon the foregoing, defendant's petition for a writ
of error coram nobis (#152) is DENIED.

21

IT IS SO ORDERED.

22

DATED this

iay of August, 2003.

23
24
Malcolm F. Marsh
United States District Judge

25
26
27

/

28

,Y

3 - ORDER

Case 3:80-cr-00082-MA

w

Document 153

Filed 08/04/03

Page 4 of 4

w

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

CRIMINAL MINUTES
Case No: Cr. 80-82; CV 03-951-MA

Proceeding Date:

August 27, 2003

Case Title: USA v. LAWRENCE DOBY WILSON
Presiding Judge: Malcolm F. Marsh

Courtroom Deputy: Connie Armstrong
AUSA: Michael W. Mosman

Tape No:

Reporter:

COUNSEL

DEFENDANT
P = Present NP= Not Present
R = Released C - Custody

P=Present NP = Not Present
A = Apptd F=Fed Defender R = Retd

(1) LAWRENCE DOBY WILSON
Location: NP - C

(1) PRO SE
Presence-Type:

(2)
Location:

(2)
Presence-Type:

(3)
Location:

(3)
Presence-Type:

(4)
Location:
NOTIFICATION:

(4)
Presence-Type:
^

Docket Entry:
Petitioner's Motion (#154) for Reconsideration is DENIED.

Document Number:
CRIMINAL MINUTES
Revised August 27, 2003

Pi

Honorable Malcolm F. Marsh

